<html>
<title> - BURMA HUMAN RIGHTS AND DEMOCRACY ACT OF 2014</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






              BURMA HUMAN RIGHTS AND DEMOCRACY ACT OF 2014

=======================================================================


                                 MARKUP

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                               H.R. 4377

                               __________

                           SEPTEMBER 9, 2014

                               __________

                           Serial No. 113-221

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                 U.S. GOVERNMENT PRINTING OFFICE 

89-739 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                               
                                 
                                 
 
 
 
 
 
 
 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas
CURT CLAWSON, Florida

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                      STEVE CHABOT, Ohio, Chairman
DANA ROHRABACHER, California         ENI F.H. FALEOMAVAEGA, American 
MATT SALMON, Arizona                     Samoa
MO BROOKS, Alabama                   AMI BERA, California
GEORGE HOLDING, North Carolina       TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            BRAD SHERMAN, California
DOUG COLLINS, Georgia                GERALD E. CONNOLLY, Virginia
CURT CLAWSON, Florida                WILLIAM KEATING, Massachusetts

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 4377, To place conditions on assistance to the Government of 
  Burma..........................................................     4

                                APPENDIX

Markup notice....................................................    18
Markup minutes...................................................    19
Markup summary...................................................    20
The Honorable George Holding, a Representative in Congress from 
  the State of North Carolina: Prepared statement................    21
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    22

 
              BURMA HUMAN RIGHTS AND DEMOCRACY ACT OF 2014

                              ----------                              


                       TUESDAY, SEPTEMBER 9, 2014

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2172 Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. The committee will come to order. Pursuant to 
notice, I call up H.R. 4377, Burma Human Rights and Democracy 
Act of 2014, for purposes of markup and move its recommendation 
to the full committee. Without objection, the bill is 
considered as read and open for amendment at any point.
    I now recognize myself to speak on the bill. Since 2011, we 
have witnessed U.S. policy toward Burma undergo a discernible 
shift. During this time, the subcommittee has held a number of 
hearings to examine this policy change, as well as express our 
concerns regarding the ongoing human rights abuses inside 
Burma. Last year, the administration decided to apply a more 
forward leaning engagement strategy with Burma, but did so 
based on unfulfilled promises from the Burmese Government. Most 
notably, this included the administration's decision to 
initiate direct military engagement with the Burmese military 
as well as a Fiscal Year 2015 request for international 
military and education training assistance.
    I think we all agree that the Burma we see today is much 
different than the one we knew only a few years ago. Most will 
argue that Burma's sudden and unexpected democratic changes 
which opened its frontier to the world was indeed incredible. 
Nobel Peace Prize winner Aung San Suu Kyi's election to 
Parliament brought much hope, as did the regime's actions to 
release nearly 30,000 prisoners, 1,071 of which were political 
prisoners.
    However, the political and social situation in Burma has 
taken a sharp turn for the worse. And I am very troubled by its 
current trajectory. The civil unrest between the Buddhist 
majority and Muslim minority is threatening the progression of 
Burma's future political reforms. Nearly 140,000 Rohingya have 
been displaced by violent attacks and now live in concentration 
camp like conditions. Last year, the United States Special 
Rapporteur called the situation ``a profound crisis.'' Since 
that time, the Burmese Government has taken few, if any, steps 
to forge a peaceful, harmonious, and prosperous future for the 
Rakhine State.
    Even the U.S. Holocaust Memorial Museum Center for the 
Prevention of Genocide is now tracking Burma. With al-Qaeda's 
leader Zawahiri's recent call for operations to expand into 
Burma, we have to fear for the future stability of the country 
and its government's unwillingness to do anything about it. The 
Obama administration has been very generous toward the Thein 
Sein government. The list of gestures is long and includes 
trade and investment negotiations to allow Burma's military to 
observe the largest military exercise in the world, Cobra Gold.
    However, providing assistance to Burma's military despite 
the military being a perpetrator of human rights abuses against 
Rohingya and other ethnic minorities, it's failure to sever 
ties with North Korea, and it's lack of commitment to reforms 
that will ensure civilian oversight of its armed forces. It is 
hasty and careless.
    The Burmese military still uses rape as a weapon of war and 
has more recently shown its refusal to allow for further 
democratic reforms to Burma's Constitution. In addition, there 
has recently been a serious clamp down on press freedoms. The 
July sentencing of five journalists to 10 years in prison and 
hard labor for reporting about an alleged government chemical 
weapons factory is outrageous. A country that sentences its 
citizens to hard labor for reporting a very worrisome weapons 
program likely run by the military is no burgeoning democratic 
state. It is an authoritarian regime under the guise of reform 
pretenses.
    U.S. State Department officials were given no assurances 
that security assistance would ultimately help the Burmese 
people rather than provide legitimacy to one of the most 
oppressive military organizations in the world. They failed to 
provide an outline and strategy for how future engagement will 
progress and have stated that civil society groups support this 
assistance when, in fact, they do not. That is why I introduced 
H.R. 4377, the Burma Human Rights Act of 2014, along with my 
colleague, Congressman Joe Crowley, who is also with us here 
this afternoon. This legislation will ensure that U.S. security 
assistance is not provided to the Burmese military until 
Congress receives assurances that both the Burmese Government 
and military have taken the appropriate actions to end human 
rights abuses, actively supporting democratic reforms, 
appropriately addressing the resettlement in humanitarian 
situation of displaced persons, and are taking steps to allow 
for civilian control.
    H.R. 4377 restricts security assistance to Burma for 
international military and education training, military 
financing assistance, assistance to military units or personnel 
for demining programs, the sales of defense articles or defense 
services, extensions of credits, and guarantees of loans under 
the Arms Export Control Act, and any license for the export of 
defense articles or services to the armed forces, police 
intelligence, or other internal security forces in Burma.
    At the same time, H.R. 4377 notes Congress' support of the 
Defense Institute of International Legal Studies training on 
civil military relations and human rights to Burmese 
authorities as well as the support of disaster assistance to 
Burma. The bill requires the Secretary of State to submit to 
Congress a report on the strategy for engagement with Burma's 
military, a description of Burma's reform efforts, an 
assessment of the Burmese military's human rights record, steps 
taken by the Burmese military to implement transparency and 
accountability measures, and an outline of all ongoing 
activities conducted between the U.S. and the Burmese military.
    As we witness a deterioration of human rights and political 
stability in Burma, I believe the administration needs to 
reassess its strategy going forward. It is time to give the 
Burmese Government the opportunity to show that it is genuinely 
committed to reform. H.R. 4377 puts the necessary restrictions 
in place to limit the injudicious and premature decision to 
engage with Burma's military. It is a critical piece of 
legislation that will help ensure reform efforts in Burma to 
continue in such a way that all the people of Burma are 
supported. By linking military engagement with continued 
reforms, it promotes freedom and democracy and pins 
responsibility on the Burmese military to show that it is 
committed to reform efforts.
    As of today, this has been severely lacking and I would 
urge my colleagues to support this legislation. I yield back 
the balance of my time. And I would recognize the acting 
ranking member of the committee, Ms. Gabbard for 5 minutes.
    [H.R. 4377 follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Gabbard. Thank you, Mr. Chairman, and thank you also to 
Congressman Crowley for your work on this bill and support for 
human rights in Burma. Your description for why this bill is 
necessary and what you hope to accomplish makes a very strong 
case for how it has been supported in a bipartisan way.
    For many years, the U.S. Congress and this committee have 
stood strongly behind Burma's democracy movement in fighting to 
bring an end to one of the world's most brutal military 
regimes. And there can be no doubt that the Burmese military 
has committed some of the world's most heinous crimes. That 
includes attacks on ethnic minority villages, the use of rape 
as a weapon of war, and the shooting of activists in cold blood 
on the streets. That is why Congress passed legislation 
authorizing tough sanctions on Burma and it is why we need to 
be concerned about Burma today.
    The fact is that many of the issues in Burma continue. 
There are many areas where expected progress has been stalled 
and in key areas, progress already accomplished is rolling 
back. For example, this government released many political 
prisoners who are democracy activists. But since the beginning 
of this year, the arrest of prisoners has begun again with 
renewed vigor. Those who were released were done so only 
conditionally, meaning their sentences are still hanging over 
their heads. The military continues to maintain its veto power 
over political life in Burma. Burma is operating under a 
Constitution that empowers the military over its people. In 
fact, the Congress passed a resolution strongly condemning this 
constitutional referendum when it took place.
    Now is not the time for the United States to embrace a 
military that has not shown even an interest in change. We have 
worked for the release of political prisoners and an end to 
attacks on ethnic minorities, but these things are not 
happening today. In fact, the continued partnership with North 
Korea goes directly against what is in the best interests of 
the United States. I support this legislation and urge its 
adoption. I yield back.
    Mr. Chabot. The gentlelady yields back. Thank you very 
much. I am pleased that our colleague from New York, Mr. 
Crowley, a former member of the committee, is with us today. 
And without objection we will recognize him to speak next on 
this side. At this time, I will recognize Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much and I have worked for 
25 years, actually 26 years now on Burma issues and we were so 
joyous just a short time ago that it looked like we had turned 
the corner and that things would be getting better for the 
people of Burma and that a relationship with the United States 
would be beneficial to our people, but a huge benefit to the 
people in Burma. Unfortunately, that euphoria is now giving way 
to disappointment.
    This legislation today that we are submitting is a warning 
to the Government of Burma creating the facade of democratic 
reform is not enough. Creating the facade of democratic reform 
while maintaining a high level of repression, especially 
brutally and violently, committing acts of suppression against 
ethnic and tribal peoples like the Karens and the Karennis and 
others. This is totally unacceptable and will take us back to 
the bad old days when Burma was the pariah of the world.
    We are aware of the continuous and the continuing murders 
and attacks on these ethnic peoples along the border. We are 
also aware that the minority of Muslims, the government is 
standing aside and letting them be brutally murdered by various 
forces in that part of Burma.
    This legislation is a clear statement that the Government 
of Burma ignores at its own peril. We are moving to stop 
military support for the Burmese military. If human rights 
keeps getting worse in Burma, the people of Burma will pay a 
dear price. And the people of that region will pay a dear price 
from what we thought would be a more open system that is hooked 
into the economy in that part of the world and would have been 
beneficial to everyone. These steps that have been taken are 
certainly not enough because what we are seeing now is a slide 
back even to steps that didn't go far enough, but now we are 
sliding back into repression and dictatorship. And 
unfortunately, with that will come a slide into a hostile 
relationship with the United States and those other Western 
countries.
    So I would hope that the people who are in a decision-
making position in Burma pay close attention because want to 
have a good relationship with them. We want to have a 
relationship with the people of Burma that will be beneficial 
to them and positive in nature for that whole region of the 
world. Unfortunately, decisions made to continue the type of 
attacks and repression that the Burmese leadership are 
permitting on the ethnic groups as well as the elimination of 
freedom, personal freedoms, and individual rights among the 
Burmese people as well, this is going to lead into a historic 
disaster in that it will be a reversal from going forward and 
instead drag Burma again down into the pits. Thank you very 
much, Mr. Chairman.
    Mr. Chabot. Thank you very much. The gentleman's time has 
expired. I would now like to recognize the gentleman from New 
York, the principal co-sponsor of the legislation and thank him 
for his leadership on the bill. Our staff worked very closely 
on this and a lot of the language in here was at the 
suggestion, the assistance, the help, and the leadership of the 
gentleman from New York. So thank you very much and you are 
recognized for 5 minutes.
    Mr. Crowley. Thank you, Mr. Chairman, thank you for letting 
me participate as well. I served 12 years on this committee and 
I miss this room more than I thought I would, so it is good to 
be back. And thank you for yielding me the time. I also want to 
thank Ranking Member Faleomavaega, although not here today, and 
very ably served this afternoon substituted by my good friend, 
Tulsi Gabbard from Hawaii.
    This is a bipartisan piece of legislation and in that 
spirit I want to say I deeply appreciate, Mr. Chairman, your 
support and your bringing this before the subcommittee today. 
You have been a true champion for freedom and democracy for the 
Burmese people in holding hearings on this issue and helping 
bring attention and raise awareness and I am deeply 
appreciative of that and I thank you for that.
    I am here as the lead Democrat on this issue and the reason 
I have been so drawn to this issue is because I believe it is 
the right thing to do. Over the past few years, we have seen 
some progress on some issues in Burma, some that we have all 
taken joy and pride in seeing take place. I vocally supported 
the administration's policy of action for action. I was eager 
as Democratic House member to support that policy, but I am 
concerned about a number of issues and I am very uneasy about 
those who are proposing that the U.S. military move ahead 
quickly to embrace the military that has not yet reformed 
enough.
    I am also very uneasy about the fact that the United States 
is considered a further relaxing of pressure, even though core 
issues have stalled and are ongoing in an unaddressed way and 
in fact in many respects are moving backwards as the chairman 
and others have indicated. That includes the fact that the 
opposition leader in Burma cannot serve as president of Burma.
    I have to say I have never heard of an election being 
considered free and fair if the opposition candidate is barred 
from serving as a leader in the Constitution. That is not free. 
That is not fair period. I am also concerned about the 
situation with respect to the media in Burma, the recent arrest 
of journalists and sentencing them to 10 years with hard labor 
is not consistent with actions of a democratic country.
    Similarly, ongoing attacks on minority groups like the 
Kachin and the Shan are inconsistent with a democratic system. 
They simply are not. The world is also concerned about the 
Rohingya and other Muslims. These are men, women, children and 
infants who are for all practical purposes locked up in camps 
and denied healthcare and adequate nutrition. What is going on 
there should hit the conscience of all those concerned with 
human rights. I don't care what your religion is or what your 
background is, no one should be denied food and healthcare. On 
top of all of this, the number of political prisoners in Burma 
has increased since the beginning of this year. These are just 
some of the other reasons that this legislation makes sense. If 
the Burmese authorities want to have a more advanced 
relationship with the United States and a relaxed one as well 
with our military, it cannot be an exchange for just open-ended 
promises of change somewhere down the line. It should be linked 
to the concrete reforms that we expect of civilian rule. I am 
okay with limited bills training, as I have said that before, 
but only if that training shows results. Anything beyond that 
is staged and is premature.
    So I once again appeal to the Government of Burma. It is 
about 15 months before the 2015 elections. Make it clear right 
here and now that these elections will be free and they will be 
fair, truly free and truly fair. Most importantly, amend the 
Constitution. Make sure that Aung San Suu Kyi is eligible to 
serve as president, if elected. Give Burma's ethnic peoples a 
voice in the future of their country. The whole world knows 
this isn't as simple as it sounds. The Constitution was 
initially adopted through a sham referendum which led to the 
current government. The current government and party completely 
dominate the constitutional amendment process because 25 
percent of the Parliament is controlled by the military.
    So let us not pretend that this is a democratic process. It 
is a process dominated by the same powers that wrote the 
undemocratic Constitution in the first place. That is why it 
needs to change so the people of Burma have the chance to 
determine their own destiny. I urge passage of the chairman's 
bill and once again, thank him as well as the Democrats and 
Republicans on this committee for moving it forward. And I 
yield back the balance of my time.
    Mr. Chabot. Thank you very much. I think it was well said. 
And does the gentleman from California seek recognition?
    Mr. Sherman. Yes, briefly.
    Mr. Chabot. The gentleman is recognized.
    Mr. Sherman. I have this brilliant speech in favor of the 
bill. Unfortunately, my brilliant colleagues of both parties 
have already said everything I was going to say and 
accordingly, I yield back.
    Mr. Chabot. Thank you. I understand there is no one else on 
this side who seeks recognition at this time. Excellent.
    Are there any amendments to the bill? Hearing no 
amendments, the question occurs on the motion to report the 
bill favorably. All in favor say aye.
    Those opposed, say no.
    In the opinion of the Chair, the ayes have it. The motion 
is approved and the bill is reported favorably.
    Without objection, the bill be reported favorably to the 
full committee and I want to thank our members and staff for 
all their assistance and cooperation on today's markup. The 
subcommittee stands adjourned. Thank you very much.
    [Whereupon, at 2:20 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
